No. 20-_
IN THE

$Upreme (!Court of tbe mlniteb $tates
DEMETREUS KEAHEY,

Petitioner,
V.

DAVE MARQUIS,

Respondent.

CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29.5 and the April 15, 2020 Order of this
Court, I hereby certify that the Petition for Writ of Certiorari in Keahey v. Marquis,
No. 20-_, was served via electronic mail on all parties required:
Mary Anne Reese
OFFICE OF THE ATTORNEY GENERAL OF OHIO

441 Vine Street, 1600 Carew Tower
Cincinnati, Ohio 45202
(513) 852-1525
mary. anne .reese@ohioattorneygeneral.gov

Counsel for Respondent
I declare under penalty of perjury that the foregoi

Date: March 16, 2021

